APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion of the Eighth Circuit Court of
Appeals, Custom Hair Designs by Sandy,
LLC v. Cent. Payment Co., No. 20-1677
(Dec. 30, 2020) ............................................. App-1
Appendix B
Opinion of the United States District
Court for the District of Nebraska,
Custom Hair Designs by Sandy, LLC v.
Cent. Payment Co., No. 17CV310
(Feb. 11, 2020) ........................................... App-15
Appendix C
Order of the Eighth Circuit Court
of Appeals Denying Petition for
Rehearing, Custom Hair Designs by
Sandy v. Cent. Payment Co., No. 20-1677
(Feb. 11, 2021) ........................................... App-57
Appendix D
Fed. R. Civ. P. 23 ....................................... App-59

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
________________
No. 20-1677
________________
CUSTOM HAIR DESIGNS BY SANDY, LLC, on behalf of
themselves and all others similarly situated and
SKIP’S PRECISION WELDING, LLC, on behalf of
themselves and all others similarly situated,
v.

Appellees,

CENTRAL PAYMENT CO., LLC,
Appellant.
________________
Appeal from the United States District Court
for the District of Nebraska
Submitted: November 18, 2020
Filed: December 30, 2020
________________
OPINION
________________
Before BENTON, ERICKSON and GRASZ, Circuit
Judges.
BENTON, Circuit Judge.
Custom Hair Designs by Sandy and Skip’s
Precision Welding, LLC brought a class action alleging
breach of contract, state-law fraudulent concealment,
and violation of the Racketeer Influenced and Corrupt
Organizations Act (RICO). 18 U.S.C. §§ 1962(a), (c) &

App-2
(d). The district court certified the proposed class.
Central Payment Co., LLC (CPAY) appeals. Having
jurisdiction under 28 U.S.C. § 1292(e) and Federal
Rule of Civil Procedure 23(f), this court affirms
certification.
“District courts have broad discretion to
determine whether certification is appropriate.”
Harris v. Union Pacific RR Co., 953 F.3d 1030, 1033
(8th Cir. 2020). “In reviewing the district court’s
certification decision, the district court’s rulings on
questions of law are reviewed de novo and its
application of the law is reviewed for an abuse of
discretion.” Id.
The class are over 160,000 small retailers using
CPAY for credit card processing. CPAY does not
employ its (loosely affiliated) agents. They use form
contracts with blanks for the pricing terms, which are
subject to negotiation. Individual retailers can select
from two basic pricing schemes—”pass-through” or
“tiered” (by class of transaction). Both focus on the
price-per-transaction that credit card issuers impose.
Changes to the price-per-transaction must be
approved by the issuing banks under the terms of
CPAY’s form contract.
Plaintiffs allege CPAY misrepresented a number
of fees, added fees with no value to retailers, and
inflated fees without prior approval from issuing
banks. Plaintiffs stress that the FTC previously
barred, for fraud, CPAY’s founders from selling
auction guides. See Federal Trade Comm’n, California
Defendants that Deceptively Marketed and Sold
Auction Information Guides for Homes and Cars Agree
to Pay Consumer Redress to Settle FTC Charges,

App-3
Jan. 17, 2001, https://www.ftc.gov/news-events/pressreleases/2001/01/california-defendants-deceptivelymarketed-and-sold-auction.
CPAY
moved
for
summary judgment. In a single order, the district
court denied summary judgment and certified the
class.
This court has jurisdiction to review only the class
certification, so a searching inquiry of the record is
inappropriate. Postawko v. Missouri Dep’t of Corr., 910
F.3d 1030, 1037 (8th Cir. 2018) (“Merits questions
may be considered to the extent—but only to the
extent—that they are relevant to determining
whether the Rule 23 prerequisites for class
certification are satisfied.”). “Moreover, a defendant
bears a more onerous burden in challenging
certification where the initial certification decision
was carefully considered and made after certificationrelated discovery.” Vogt v. State Farm Life Ins. Co.,
963 F.3d 753, 765 (8th Cir. 2020) (cleaned up).
I.
CPAY argues the district court failed to
adequately explain its certification decision. 1 The
district court must engage in a “rigorous analysis” of
Federal Rule 23 certification. Elizabeth M. v.
Montenez, 458 F.3d 779, 784 (8th Cir. 2006). “The
same analytical principles govern Rule 23(b).”
Comcast Corp. v. Behrend, 569 U.S. 27, 34 (2013). This
1
CPAY emphasizes that the district court’s order
mischaracterizes its position as including “whether the class
members are ‘qualified’ for the position or can be reasonably
accommodated before one can determine the class composition.”
Although careless, this oversight is harmless and does not change
the analysis here.

App-4
court previously rejected a “district court’s
predominance analysis [that] consisted of one short
paragraph, which concluded that the plaintiffs ‘as a
whole do in fact allege and have injury’ and that ‘[t]he
same evidence will be used to establish classwide
proof.’” Harris, 953 F.3d at 1037-38 (second alteration
in original). “[A]t a minimum the rule requires a
district court to state its reasons for certification in
terms specific enough for meaningful appellate
review.” In re Target Corp. Customer Data Sec. Breach
Litig., 847 F.3d 608, 612 (8th Cir. 2017).
CPAY argues Harris requires reversal. The
district court here made specific findings of fact.
Contrary to CPAY’s assertion, the district court’s
decision is specific enough. In Harris, this court did
not reverse due to a procedurally inadequate analysis
of the Rule 23 prerequisites; instead, this court
reached the merits, determining the district court
abused its discretion in certifying. See Harris, 953
F.3d at 1039.
Finally, CPAY ignores that the district court
issued an order that included its denial of summary
judgment. Because the court addressed the merits in
its summary-judgment analysis, and thus mentioned
them only briefly in the class certification section, the
court need not repeat its view of the record in each
section of an order. The district court here engaged in
a sufficiently rigorous analysis.
II.
“Before a class may be certified, Rule 23 requires
that plaintiffs meet all of Rule 23(a)’s requirements
and satisfy one of the three subsections of Rule 23(b).”
Harris, 953 F.3d at 1033. “Rule 23(b)(3) . . . requires

App-5
that ‘questions of law or fact common to class members
predominate over any questions affecting only
individual members, and that a class action is superior
to other available methods for fairly and efficiently
adjudicating the controversy.’” Id., quoting Wal-Mart
Stores, Inc. v. Dukes, 564 U.S. 338, 362 (2011).
A.
CPAY argues that the district court erred in
determining that common questions predominate.
This court begins by “considering the nature of
plaintiffs’ claim to determine whether it is suitable for
class certification.” Id. This court does not need to
conclude whether the theory of liability is viable. Id.
at 1039. This court denies certification only if the
theory of liability “is a highly individualized question
that does not allow class certification under Rule
23(b)(2) and (b)(3).” Id.
Predominance subsumes the commonality
requirement, so both can be analyzed through the lens
of predominance. Amchem Prods., Inc. v. Windsor, 521
U.S. 591, 609 (1997). Predominance gauges “the
relationship between common and individual
questions in a case.” Tyson Foods, Inc. v.
Bouapheakeo, 136 S. Ct. 1036, 1045 (2016). “An
individual question is one where members of a
proposed class will need to present evidence that
varies from member to member, while a common
question is one where the same evidence will suffice
for each member to make a prima facie showing or the
issue is susceptible to generalized, class-wide proof.”
Id. (quotation omitted). “When ‘one or more of the
central issues in the action are common to the class
and can be said to predominate, the action may be

App-6
considered proper under Rule 23(b)(3) even though
other important matters will have to be tried
separately, such as damages or some affirmative
defenses peculiar to some individual class members.’”
Id., quoting 7AA C. Wright, A. Miller, & M. Kane,
Federal Practice and Procedure, § 1778, pp. 123-124
(3d ed. 2005).
1.
Common questions and common answers
predominate here. Dukes, 564 U.S. at 350. First, all
claims deal with either a common scheme of fraud or
a term common to all contracts with CPAY. True, the
negotiated pricing terms are different and some
contracts authorize some fees that plaintiffs allege
were fraudulent. However, all plaintiffs allege failure
to get bank preauthorization. The relevant contract
term was uniform. Compare Webb v. Exxon Mobil
Corp., 856 F.3d 1150, 1156-57 (8th Cir. 2017) (finding
breach of contract insufficiently common where extent
of pollution was property-specific), with McKeage v.
TMBC, LLC, 847 F.3d 992, 999 (8th Cir. 2017) (finding
commonality satisfied where breach arose from form
contract term). Plus, the statements communicating
changes to billing were nearly identical.
Second, any pricing differences would not affect
liability, only damages. If CPAY engaged in a common
scheme to defraud plaintiffs, the difference between
the bank-authorized pass-through costs and CPAY’s
charges measures only the damages to individual class
members. At worst, this requires individual proof at
the damages phase, which the Court approved in
Tyson. Tyson, 136 S. Ct. at 1045. Plus, to measure
damages the plaintiffs plan to use CPAY’s database.

App-7
This mirrors the evidence approved in Tyson, where a
statistical expert determined the average amount of
time employees spent donning and doffing their gear.
Id. at 1046. Slight variation in actual damages does
not defeat predominance if there are common legal
questions and common facts.
Third, that some contracts authorize a “PCI
Noncompliance Fee” or a “TSSNF Fee” does not defeat
predominance. The actual extent of inquiry required
here is cursory. Plaintiffs’ expert, in calculating
damages, need identify only whether a contract
authorized a PCI or TSSNF fee. Because this inquiry
is not highly individualized, it does not defeat
predominance. See id.
Fourth, that changes in bank rates cause tier
shifts does not defeat predominance. Plaintiffs’ claim
is that the issuing banks did not change their
interchange rates, but CPAY moved whole classes of
transactions to a higher-priced tier. If issuing banks
did change interchange fees, plaintiffs’ claim fails. If
no change occurred, CPAY’s defense fails. See Dukes,
564 U.S. at 350.
2.
According to CPAY, RICO claims based on
fraudulent concealment or misrepresentation in
billing are not susceptible to classwide proof of
reliance, especially where contracts authorized the
billing practices. Plaintiffs counter that their RICO
claims stem from misrepresentations in performance,
including misleading justifications for rate increases
as “pass-through” costs.
“[A] plaintiff asserting a RICO claim predicated
on mail fraud need not show, either as an element of

App-8
its claim or as a prerequisite to establishing proximate
causation, that it relied on the defendant’s alleged
misrepresentations.” Bridge v. Phoenix Bond &
Indem. Co., 553 U.S. 639, 661 (2008). “When a court
evaluates a RICO claim for proximate causation, the
central question it must ask is whether the alleged
violation led directly to the plaintiff’s injuries.” Id. at
654, quoting Anza v. Ideal Steel Supply Corp., 547 U.S.
451, 461 (2006). The Court concluded its analysis of
causation under RICO with: “Having rejected
petitioners’ argument that reliance is an element of a
civil RICO claim based on mail fraud, we see no reason
to let that argument in through the back door by
holding that the proximate-cause analysis under
RICO must precisely track the proximate-cause
analysis of a common-law fraud claim.” Id. at 655.
Compare In re United States Foodservice Inc. Pricing
Litig., 729 F.3d 108, 121-22 (2d Cir. 2013) (affirming
RICO certification in pricing case) and Torres v. S.G.E.
Mgmt., LLC, 838 F.3d 629, 639 (5th Cir. 2016) (en
banc) (post-Bridge case certifying RICO class), with
Sandwich Chef of Texas, Inc. v. Reliance Nat’l Indem.
Ins. Co., 319 F.3d 205, 219 (5th Cir. 2003) (pre-Bridge
case reversing RICO certification in pricing case). See
also Poulos v. Caesars World, Inc., 379 F.3d 654, 664
(9th Cir. 2004) (pre-Bridge case declining RICO
certification).
CPAY’s arguments about reliance misstate
current RICO law in the same way as the petitioner in
Bridge. Although reliance is required for common law
fraud, RICO’s predicate is mail or wire fraud, which
did not exist at common law. Bridge, 553 U.S. at 652.
The requirements for common law fraud are not read
into RICO. Id. Thus, plaintiffs are correct that

App-9
overpayments from a pattern of systemic mail fraud in
CPAY’s billing would satisfy RICO’s causation
requirements and be common among all plaintiffs. See
In re Foodservice, 729 F.3d at 122 (holding fees
“created for the purpose of misrepresenting cost and
. . . then kept secret so as to deceive customers about
overbilling” was a question amenable to common
proof).
3.
CPAY argues the statute of limitations defeats
predominance, alleging some claims may be timebarred. Plaintiffs counter that fraudulent concealment
can toll the statute of limitations and is susceptible to
classwide proof.
“If a petition alleges a cause of action ostensively
barred by the statute of limitations, such petition, in
order to state a cause of action, must show some
excuse tolling the operation and bar of the statute.”
L.J. Vontz Constr. Co. v. Dep’t of Roads, 440 N.W.2d
664, 665 (Neb. 1989). “Under the doctrine of
fraudulent concealment, the plaintiff must show that
he or she exercised due diligence to discover his or her
cause of action before the statute of limitations
expired and that the defendant committed some
affirmative act of fraudulent concealment which
prevented the plaintiff from discovering his or her
cause of action. Upah v. Ancona Bros. Co., 521 N.W.2d
895, 902 (Neb. 1994), disapproved on other grounds by
Welsch v. Graves, 582 N.W.2d 312, 316 (Neb. 1998).
Whether CPAY engaged in affirmative acts to
conceal its fraudulent billing practices is a question
susceptible to classwide proof. The question is not
whether each individual defendant was personally

App-10
confused, but whether CPAY’s scheme of billing
prevented discovering the fraud. For example, CPAY
allegedly sent notices telling merchants that bank fees
mandated higher prices. This statement, if false,
would be an affirmative act of fraudulent concealment
to each plaintiff receiving the statement. Thus, the
statute of limitations does not defeat predominance
here.
4.
CPAY argues state-law fraudulent concealment
requires reliance. “In a typical common-law fraud
case, a plaintiff must show that he or she received the
defendant’s alleged misrepresentation and relied on
it.” In re St. Jude Med., Inc., 522 F.3d 836, 838 (8th
Cir. 2008). To prove fraudulent concealment, a
plaintiff must show:
“(1) the defendant had a duty to disclose a
material fact; (2) the defendant, with
knowledge of the material fact, concealed the
fact; (3) the material fact was not within the
plaintiff’s reasonably diligent attention,
observation, and judgment; (4) the defendant
concealed the fact with the intention that the
plaintiff act in response to the concealment or
suppression; (5) the plaintiff, reasonably
relying on the fact or facts as the plaintiff
believed them to be as the result of the
concealment, acted or withheld action; and
(6) the plaintiff was damaged by the
plaintiff’s action or inaction in response to the
concealment.”
Knights of Columbus Council 3152 v. KFS BD, Inc.,
791 N.W.2d 317, 333 (Neb. 2010). “One who makes a

App-11
fraudulent misrepresentation is subject to liability to
the persons or class of persons whom he intends or has
reason to expect to act or to refrain from action in
reliance upon the misrepresentation.” Bank of Valley
v. Mattson, 339 N.W.2d 923, 927 (1983).
Contrary to CPAY’s assertion that agents’
representations to each class member must be
examined, plaintiffs focus on CPAY’s intent to defraud
by concealing their overall plan to raise prices
illegitimately. Agent communications are relevant as
a defense, but only if CPAY could prove agents
disclosed CPAY’s intention to charge higher fees
without issuing bank authorization. CPAY did not
introduce summary judgment evidence suggesting its
agents disclosed its plans.
Plaintiffs could reasonably have relied on CPAY’s
representation that issuing banks authorized rate
changes. See Knights of Columbus, 791 N.W.2d at 333
(sending “false and misleading letters” to customers
qualifies as inducing reliance). Plaintiffs accepted the
validity of rate increases based on CPAY’s
representation that issuing banks authorized the
changes. See id. at 334 (“[W]hen a plaintiff’s inaction
in response to a concealment causes damages, it is
because the concealment of material information
induced the plaintiff’s false belief that action was not
needed.”). Nebraska reliance law does not defeat
predominance.
B.
CPAY argues that the named plaintiffs’ claims are
not typical of class members’. “Typicality is fairly
easily met so long as other class members have claims
similar to the named plaintiff.” Postawko, 910 F.3d at

App-12
1039. “Factual variations in the individual claims will
not normally preclude class certification if the claim
arises from the same event or course of conduct as the
class claims, and gives rise to the same legal or
remedial theory.” Id. When typicality and
commonality arguments overlap significantly, the
analysis for commonality largely determines
typicality. Id. “[T]he potential for minor ‘factual
variations’ does not undermine the district court’s
conclusion that the violation allegedly suffered by the
Named Plaintiffs is typical of that suffered by the class
as a whole.” Id.
The named plaintiffs’ claims are typical of the
class. CPAY ignores the similarities of the core claims
both named plaintiffs make—the general scheme of
deceptive billing, violation of the bank preauthorization contract requirement, and fraudulent
concealment. Since plaintiffs’ claims resemble the
theories applicable to all class members, minor factual
variations such as differences in rates do not defeat
typicality.
C.
CPAY argues that the named plaintiffs do not
represent class interests adequately. 2 “Where, as here,
Since neither named plaintiff suffered a tier shift, CPAY
argues they cannot adequately represent class interests. See
Amchem Prod., Inc. v. Windsor, 521 U.S. 591, 626 (1997). This
argument misunderstands the injury here. Breach of the preauthorization contract term could be either a tier shift or an
impermissible increase in interchange fees without a tier shift.
Named plaintiffs’ interests align with other members suffering a
slightly different breach of the same contract term. To the extent
named plaintiffs are not representative, the district court may
consider a motion to amend to add named plaintiffs. See Fed. R.
2

App-13
adequacy of class representation is at issue, ‘close
scrutiny’ in the district court is even more important
given the need to protect the due process rights of
absent class members.” Target Corp., 847 F.3d at 612.
In Target this court found recitation of Rule 23(a)(4)
insufficient without explanation or response to
defendants’ claim of an intraclass conflict. Id. at 613.
Despite the defendants’ timely objections, the district
court there never analyzed the intraclass conflict
claims that might have undermined the integrity of
the class as certified. Id.
CPAY’s claims are unlike those in Target. First,
CPAY objects to failure to include members of a
hypothetical class that plaintiffs did not seek to
certify. Target deals only with an overbroad class
certification that includes intraclass conflicts.
Identifying and not including class members does not
create an intraclass conflict, because the claims of
non-class-members are not litigated. The claims
CPAY discusses would thus not be precluded. See
Dicken v. Ashcroft, 972 F.2d 231, 233 (8th Cir. 1992),
citing Gonzales v. Cassidy, 474 F.2d 67, 72 (5th Cir.
1973) (“[I]nadequate representation of class precludes
res judicata from attaching to that judgment and
binding absent class members.”). This case does not
raise the due process concerns in Target, where the
financial interests of actual class members potentially
diverged. The district court did not err in determining
the named plaintiffs adequately represented class
interests.
Civ. P. 15 & 16; In re Milk Prod. Antitrust Litig., 195 F.3d 430,
438 (8th Cir. 1999) (leaving decision to add named plaintiffs to
district court’s discretion).

App-14
D.
CPAY claims the class does not satisfy
superiority. “The superiority requirement involves
showing ‘that a class action is superior to other
available methods for fairly and efficiently
adjudicating the controversy.’” Perras v. H & R Block,
789 F.3d 914, 916 (8th Cir. 2015), quoting Fed. R. Civ.
P. 23(b)(3). Class actions are superior when “the class
members’ claims are generally small and unlikely to
be pursued individually.” Stuart v. State Farm Fire &
Cas. Co., 910 F.3d 371, 377 (8th Cir. 2018).
A class action is the superior mechanism to try
this case. Plaintiffs’ individual claims are for tens or
hundreds of dollars. Absent a class action, no plaintiff
is likely to pursue their claim individually. The
district court did not abuse its discretion in finding a
class action superior here.
*******
The appealed order is affirmed.
______________________________

App-15
Appendix B
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA
________________
No. 8:17CV310
________________
CUSTOM HAIR DESIGNS BY SANDY, LLC, on behalf of
themselves and all others similarly situated; and
SKIP’S PRECISION WELDING, LLC, on behalf of
themselves and all others similarly situated,
v.

Plaintiffs,

CENTRAL PAYMENT CO., LLC,
Defendant.
________________
Filed: February 11, 2020
ECF No. 142
________________
MEMORANDUM AND ORDER
________________
This matter is before the Court on multiple
motions: request for class certification, Filing No. 89,
filed by plaintiffs; motion to strike testimony of Karl
J. Borden filed by defendant, Filing No. 99; motion for
summary judgment filed by defendant, Filing No. 117;
and motion to strike evidence filed by defendant,
Filing No. 129.
BACKGROUND
Plaintiffs are merchants that processed credit and
debit transactions through defendant Central

App-16
Payment Co., LLC (CPAY). CPAY processes over
65,000 businesses and over $10 billion in credit sales
annually. Plaintiffs contracted with CPAY from
November 2015 through February 2017 for payment
processing services. Plaintiffs allege that CPAY
charged fees for its payment processing services that
do not coincide with the terms of plaintiffs’ merchant
agreements and Terms and Conditions. Plaintiffs
plead this case as a putative nationwide class action
and argue that CPAY is a multi-year, interstate,
multi-million-dollar
scheme
to
defraud
unsophisticated merchants. Defendants argue that
this is a simple breach of contract case. CPAY
allegedly altered the credit card discount rates which
changed the individual accounts by a few dollars a
month, but on a national level, such scheme applied to
over 200,000 national accounts. Although CPAY did
not incur these fees in its role with merchants, it
allegedly increased the fees, which were not
authorized under contract, forcing the plaintiffs to pay
more.
Those affected by the alleged scheme include:
Bank: During the class period, it was First National
Bank of Omaha (FNBO); Major credit card company:
Visa, Mastercard, etc.; Credit card processing
company: During the class period, it was TSYS;
Merchant acquirer: CPAY; and, Merchants: CPAY’s
customers. TSYS has owned CPAY since April 2018.
CPAY used “independent contractors” who get
commission for each signed customer. The
“independent contractors” also receive training
information.

App-17
STANDARD OF REVIEW
“Summary judgment is appropriate ‘if the movant
shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.’” Foster v. BNSF Ry. Co., 866 F.3d
962, 966 (8th Cir.2017) (quoting Fed. R. Civ. P. 56(a)).
“Summary judgment procedure is properly regarded
not as a disfavored procedural shortcut, but rather as
an integral part of the Federal Rules as a whole, which
are designed ‘to secure the just, speedy, and
inexpensive determination of every action.”‘ Celotex
Corp. v. Catrett, 477 U.S. 317, 327 (1986) (quoting Fed.
R. Civ. P. 1).
“The movant bears the initial responsibility of
informing the district court of the basis for its motion,
‘and must identify those portions of the record] . . .
which it believes demonstrate the absence of a genuine
issue of material fact.’” Torgerson v. City of Rochester,
643 F.3d 1031, 1042, (8th Cir. 2011) (en banc) (quoting
Celotex, 477 U.S. at 323). If the movant meets the
initial burden, “the nonmovant must respond by
submitting evidentiary materials that set out ‘specific
facts showing that there is a genuine issue for trial.’”
Torgerson, 643 F.3d at 1042 (quoting Celotex, 477 U.S.
at 324). “The nonmovant ‘must do more than simply
show that there is some metaphysical doubt as to the
material facts,’ and must come forward with ‘specific
facts showing that there is a genuine issue for trial.”‘
Torgerson, 643 F.3d at 1042 (quoting Matsushita Elec.
Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 586-87
(1986)). “The mere existence of a scintilla of evidence
in support of the [nonmovant’ s] position will be
insufficient; there must be evidence on which the jury

App-18
could reasonably find for the [nonmovant].” Barber v.
C1 Truck Driver Training, LLC, 656 F.3d 782, 791-92
(8th Cir. 2011) (quoting Anderson v. Liberty Lobby,
lnc., 477 U.S. 242, 252 (1986)).
DISCUSSION
I. Filing No. 89, request for class certification
Plaintiffs move to certify a class of merchants who
suffered financial losses due to the alleged scheme by
CPAY from January 1, 2010 to the present. 1 This
class, contends plaintiffs, have suffered damages in
excess of $100 million, although each individual’s
damages do not justify separate actions. Plaintiffs
contend that there are four practices that apply to the
named plaintiffs and to the potential class plaintiffs.
They include: TSSNF Fee; PCI Noncompliance Fee;
raising discount rates; and Tier shifting. Plaintiffs
contend all of these practices have common evidence.
Class actions are designed for “eliminating the
possibility of repetitious litigation and providing small
claimants with a means of obtaining redress for claims
too small to justify individual litigation.” DeBoer v.
Mellon Mortgage Co., 64 F.3d 1171, 1175 (8th Cir.
1995) (citation omitted). A class action “saves the
resources of both the courts and the parties by
1

The Proposed Class is defined as follows:
“All of CPAY’s customers that, from January 1, 2010,
to the present (a) were assessed the TSSNF Fee (a/k/a
TSYS Network Fee); (b) were assessed the PCI
Noncompliance Fee; (c) had their contractual credit
card discount rates increased above their contractual
rate by CPAY; and/or (d) had credit card transactions
shifted by CPAY from lower-cost rate tiers to highercost rate tiers.” Filing No. 89 at 1.

App-19
permitting an issue potentially affecting every class
member to be litigated in an economical fashion[.]”
Gen. Tel. Co. of Sw. v. Falcon, 457 U.S. 147, 155 (1982)
(quotations and modifications omitted). The district
court may grant certification only after conducting a
“rigorous analysis” confirming that the requirements
are met. Wal-Mart Stores, Inc. v. Dukes, 564 U.S. 338,
351 (2011). However, “Rule 23 grants courts no license
to engage in free-ranging merits inquiries at the
certification stage.” Amgen Inc. v. Conn. Ret. Plans &
Trust Funds, 568 U.S. 455, 466 (2013). “Merits
questions may be considered to the extent—but only
to the extent—that they are relevant to determining
whether the Rule 23 prerequisites for class
certification are satisfied.” Id.
Rule 23 of the Federal Rules of Civil Procedure
governs the requirements for establishing and
maintaining certification for a class action lawsuit. “In
order to obtain class certification, a plaintiff has the
burden of showing that the class should be certified
and that the requirements of Rule 23 are met.”
Coleman v. Watt, 40 F.3d 255, 258-59 (8th Cir. 1994).
Rule 23(a) provides:
One or more members of a class may sue or
be sued as representative parties on behalf of
all members only if:
(1) the class is so numerous that joinder
of all members is impracticable;
(2) there are questions of law or fact
common to the class;

App-20
(3) the claims or defenses of the
representative parties are typical of the
claims or defenses of the class; and
(4) the representative parties will fairly
and adequately protect the interests of
the class.
Fed. R. Civ. P. 23(a).
The United States Supreme Court has
summarized the four basic requirements as:
(1) numerosity; (2) commonality; (3) typicality; and
(4) adequacy of representation. Amchem Prods., Inc. v.
Windsor, 521 U.S. 591, 613 (1997). The determination
under Rule 23(a) is not perfunctory, “the court must
conduct a ‘rigorous analysis’ to ensure that the
prerequisites of Rule 23 are satisfied.” Elizabeth M. v.
Montenez, 458 F.3d 779, 784 (8th Cir. 2006) (quoting
Gen. Tel. Co. of the S.W. v. Falcon, 457 U.S. 147, 161
(1982)). “Frequently that rigorous analysis will entail
some overlap with the merits of the plaintiff’s
underlying claim.” Wal-Mart Stores, Inc. v. Dukes, 564
U.S. 338, 351 (2011) (internal citations omitted).
“Plaintiffs must meet all requirements of Rule
23(a) and fall within one of the categories of Rule 23(b)
to certify their . . . claims as a class action.” Blades v.
Monsanto Co., 400 F.3d 562, 568-69 (8th Cir. 2005)
(citing Amchem, 521 U.S. at 614). Rule 23(b) allows a
class action if (1) there is otherwise a risk of
(a) inconsistent adjudications or (b) impairment of
interests for non-class members; (2) the defendant’s
conduct applies generally to the whole class; or
(3) questions of law or fact common to members of the
class predominate and the class action is a superior
method for adjudication. See Fed. R. Civ. P. 23(b).

App-21
In addition to the Rule 23(a) and (b) requirements,
pursuant to Rule 23(c)(1)(B): “An order that certifies a
class action must define the class and the class claims,
issues, or defenses, and must appoint class counsel
under Rule 23(g).” Fed. R. Civ. P. 23(c). The plaintiffs
propose a class action on behalf of four classes
pursuant to Fed. R. Civ. P. 23.
A. Waiver
Defendant contends that each contract has a
waiver provision wherein each individual merchant
has agreed to waive its rights to file a class action. The
Terms and Conditions in the merchant agreements,
stated:
Waiver of Jury Trial and Covenant Not to
Participate
in
a
Class
Action. . . .
MERCHANT ALSO COVENANTS NOT TO
BRING OR PARTICIPATE IN ANY CLASS
ACTION AGAINST BANK BASED UPON
ANY CLAIMS ARISING FROM THIS
AGREEMENT. IF A CLASS PROCEEDING
IS
INITIATED
AGAINST
BANK,
MERCHANT MAY NOT JOIN THAT
PROCEEDING OR PARTICIPATE AS A
MEMBER OF THAT CLASS.
Filing No. 106-1, Ex. 15, at Page ID #2384. The
Supreme Court has indicated that mandatory
arbitration provisions are enforceable and stop parties
from asserting class claims.
Two Circuits have already affirmed the
certification of classes in fraudulent overbilling cases.
In re U.S. Foodservice, 729 F. 3d 108 (2d Cir. 2013);
Klay v. Humana, Inc., 382 F.3d 1241, 1255 (11th Cir.
2004), abrogated in part on other grounds by Bridge v.

App-22
Phoenix Bond & Indem. Co., 553 U.S. 639 (2008). The
Courts have likewise done the same in the
Racketeering Influenced and Corrupt Organizations
Act (RICO) cases. See, e.g., Huyer v. Wells Fargo & Co.,
295 F.R.D. 332, 348 (S.D. Iowa 2013); Murphy v.
Gospel for Asia, Inc., 327 F.R.D. 227, 240 (W.D. Ark.
2018).
Next, plaintiffs also argue that the contract
waiver language only precludes class actions brought
against First National Bank. The parties are governed
by the Merchant Application. The parties include the
merchant, the bank and CPAY. The language in the
agreement and application states: “MERCHANT
ALSO COVENANTS NOT TO BRING OR
PARTICIPATE IN ANY CLASS ACTION AGAINST
BANK BASED UPON ANY CLAIMS ARISING
FROM THIS AGREEMENT.” Filing No. 106-1, Ex. 15,
at Page ID #2384 § 13.3 (emphasis added). Each party
has a separate signature box, indicating separate
entities. Defendant contends that the language in the
Merchant agreement states that: “To the extent that
BANK has assigned and/or delegated rights and/or
obligations to TMS under any particular provision of
this AGREEMENT, references to BANK in such
provisions shall include TMS.” Filing No. 106-1,
Ex. 15, p. 2, Page ID 2378, Recitals § F (emphasis
added).
This argues defendant, means the term BANK
also includes CPAY. Plaintiffs claim this language at
most means that in some cases TMS and BANK will
mean the same, but it does not support a construction
that the term BANK always includes CPAY. There is
no ambiguity, argues plaintiffs.

App-23
The Court agrees with the plaintiff. The class
waiver by its language applies to the BANK and not to
claims by the merchants against CPAY. If this is in
any way deemed ambiguous, which the Court does not
believe, the law is clear that any ambiguity goes to the
drafter, which is certainly not the merchants. “Where
there is a question as to a contract’s meaning, [courts]
apply the general rule that the contract will be
construed against its drafter—here, the corporation.”
Home Fed. Sav. & Loan v. McDermott & Miller, 497
N.W.2d 678, 681 (Neb. 1993). The Court finds that
CPAY is not authorized under the contract to utilize
the class waiver provision, particularly against the
merchants.
B. Rule 23(a) Requirements
1. Numerosity
The first prerequisite the plaintiffs must meet
under Rule 23(a) is numerosity. Amchem, 521 U.S. at
613. Rule 23(a)(1) requires “the class [be] so numerous
that joinder of all members is impracticable.” See Fed.
R. Civ. P. 23(a)(1). Rule 23(a) requires only the
impracticality, not the impossibility, of joinder. U.S.
Fid. & Guar. Co. v. Lord, 585 F.2d 860, 870 (8th Cir.
1978). The plaintiffs need only show “that joining all
members of the class would be difficult.” Caroline C.
By & Through Carter v. Johnson, 174 F.R.D. 452, 462
(D. Neb. 1996) (citations omitted). “There is no magic
number for proving numerosity, but courts have
stated as few as forty class members is sufficient to
show joinder is impracticable.” Harris v. D. Scott
Carruthers & Assoc., 270 F.R.D. 446, 450 (D. Neb.
2010) (citing Hale v. AFNI, Inc., 264 F.R.D. 402, 404
(N.D. Ill. 2009)). “The Eighth Circuit has not

App-24
established strict requirements regarding the size of a
proposed class.” Estate of Mahoney v. R.J. Reynolds
Tobacco Co., 204 F.R.D. 150, 153 (S.D. Iowa 2001).
“Although mere allegations of numerosity are
insufficient to meet this prerequisite, a plaintiff need
not show the precise number of members in the class
. . . .” Cortez v. Nebraska Beef, Inc., 266 F.R.D. 275,
289 (D. Neb. 2010) (quoting Evans v. U.S. Pipe &
Foundry Co., 696 F.2d 925, 930 (11th Cir. 1983)).
“[W]here the numerosity question is a close one, a
balance should be struck in favor of a finding of
numerosity, since the court has the option to decertify
pursuant to Rule 23(c)(1).” Id. Typically, the court may
rely on the pleadings, however “it may be necessary
for the court to probe behind the pleadings to ensure
that the prerequisites of Rule 23 have been met.”
Chesher v. Neyer, 215 F.R.D. 544, 546 (S.D. Ohio 2003)
(citing Gen. Tel. Co. of S.W., 457 U.S. at 160).
In the instant case, the plaintiffs have presented
evidence of potentially 160,000 class members who
have been allegedly “swindled” for over $100 million
dollars. Defendant disputes this exact number but
does not dispute that plaintiffs have met the
numerosity requirement. Plaintiff’s expert, Arthur
Olsen, reviewed the potential class members and
determined that the 161,519 CPAY customers were
subjected to at least one discount-rate increase from
January of 2012 to October of 2018. Plaintiffs contend
that number will increase as they look deeper into the
documents.
After consideration of the number of persons in
the proposed class, the nature of the action, the
inconvenience of trying individual suits, and other

App-25
factors relevant to the practicality of joining all the
putative class members, the court finds the plaintiffs
satisfy the numerosity requirement.
2. Commonality
Second, the plaintiffs must prove the element of
commonality. Amchem, 521 U.S. at 613. Rule 23(a)(2)
requires there be “questions of law or fact common to
the class.” See Fed. R. Civ. P. 23(a)(2). “Rule 23 is
satisfied when the legal question ‘linking the class
members is substantially related to the resolution of
the litigation.’” DeBoer v. Mellon Mortg. Co., 64 F.3d
1171, 1174 (8th Cir. 1995) (quoting Paxton v. Union
Nat. Bank, 688 F.2d 552, 561 (8th Cir. 1982)).
However, “[t]he rule does not require that every
question of law or fact be common to every member of
the class.” Paxton, 688 F.2d at 561. “[T]he
commonality requirement imposes a very light burden
on the Plaintiff seeking to certify a class and is easily
satisfied.” In re Hartford Sales Practices Litig., 192
F.R.D. 592, 603 (D. Minn. 1999). Nevertheless, Rule
23(a)(2) “language is easy to misread, since ‘[a]ny
competently crafted class complaint literally raises
common “questions’”. Wal-Mart Stores, 564 U.S. at
349 (quoting Richard A. Nagareda, Class Certification
in the Age of Aggregate Proof, 84 N.Y.U. L. Rev. 97,
132 (2009)). The Court stated in Wal-Mart Stores:
What matters to class certification . . . is not
the raising of common ‘questions’—even in
droves—but, rather the capacity of a class
wide proceeding to generate common answers
apt to drive the resolution of the litigation.
Dissimilarities within the proposed class are

App-26
what have the potential to impede the
generation of common answers.
Id. at 350 (citing Nagareda, supra, at 132).
Plaintiffs point out, though, that it may not be
necessary to analyze this issue, as Courts have held
that the commonality requirement under Rule
23(b)(3) is subsumed by the predominance inquiry.
Amchem Prods., Inc., 521 U.S. at 609 (stating that
“Rule 23(a)(2)’s ‘commonality’ requirement is
subsumed under, or superseded by, the more stringent
Rule 23(b)(3) requirement that questions common to
the class ‘predominate over’ other questions”); Browne
v. P.A.M. Transp., Inc., No. 5:16-CV-5366, 2019 WL
333569, at *2 (W.D. Ark. Jan. 25, 2019) (same);
Hanson v. Acceleration Life Ins. Co., No. CIV A3-97152, 1999 WL 33283345, at *9 (D.N.D. Mar. 16, 1999)
(same); see also In re Target Corp. Customer Data Sec.
Breach Litig., 309 F.R.D. 482, 486 (D. Minn. 2015)
(describing commonality and predominance as
“related and somewhat interdependent concepts”).
Defendant disagrees and argues that the
commonality and typicality criteria are not met,
because there must be a determination of whether the
class members are “qualified” for the position or can
be reasonably accommodated before one can
determine class composition. This will vary, argues
defendant, based on the individual merchant and the
individual job.
In this case, the Court finds that the standard can
be easily met. The predominance arguments apply
here. Further, the allegations show that CPAY
systematically raised discount and contractual rates
and participated in shifting transactions to different

App-27
tiers and creating unfounded fees. The plaintiffs have
met their burden in this regard. “A sufficient nexus is
established if the claims or defenses of the class and
the class representatives arise from the same event or
pattern or practice and are based on the same legal
theory.” Kornburg v. Carnival Cruise Lines, Inc., 741
F.2d 1332, 1337 (11th Cir. 1984).
3. Typicality
Third, the class representatives have the burden
to show typicality of their claims in relation to the
other putative members of the class. Amchem, 521
U.S. at 613. Rule 23(a) requires a named plaintiff to
have claims or defenses which “are typical of the
claims or defenses of the class.” See Fed. R. Civ. P.
23(a)(3). The Eighth Circuit, “long ago defined
typicality as requiring a demonstration that there are
other members of the class who have the same or
similar grievances as the plaintiff.” Chaffin v. Rheem
Mfg. Co., 904 F.2d 1269, 1275 (8th Cir. 1990) (internal
quotations and citations omitted). “Factual variations
in the individual claims will not normally preclude
class certification if the claim arises from the same
event or course of conduct as the class claims and gives
rise to the same legal or remedial theory.” Alpern v.
UtiliCorp United, Inc., 84 F.3d 1525, 1540 (8th Cir.
1996). The burden to establish typicality is “fairly
easily met so long as other class members have claims
similar to the named plaintiff.” DeBoer v. Melon Mtge.
Co., 64 F.3d 1171, 1174 (8th Cir. 1995). However,
“[t]he presence of a common legal theory does not
establish typicality when proof of a violation requires
individualized inquiry.” Elizabeth M. v. Montenez, 458
F.3d 779, 787 (8th Cir. 2006).

App-28
The Court finds the claims and defenses are
typical of the class. Plaintiffs are alleging the same
legal theories, as those that will be brought by the
class, including fraudulent concealment; breach of
contract and duty of good faith and fair dealing and
the RICO violation. The claims are clearly typical of
the class pursuant to Fed. R. Civ. P. 23(a)(3).
4. Adequacy of Representation
The fourth prerequisite a plaintiff must meet
under Rule 23(a) for class certification is adequacy of
representation. Amchem, 521 U.S. at 613. Rule
23(a)(4) requires that “the representative parties will
fairly and adequately protect the interests of the
class.” See Fed. R. Civ. P. 23(a)(4). “The focus of Rule
23(a)(4) is whether: (1) the class representatives have
common interests with the members of the class, and
(2) whether the class representatives will vigorously
prosecute the interests of the class through qualified
counsel.” Paxton v. Union National Bank, 688 F.2d
552, 562-63 (8th Cir. 1982) (citing Gonzales v. Cassidy,
474 F.2d 67, 72 (6th Cir. 1973)).
The plaintiffs have shown they share a common
interest with the putative class members and that, as
the class representatives, they will vigorously
prosecute the interests of the class through qualified
counsel. There is no indication, as the defendants
argue, the plaintiffs’ interests are divergent or
opposed. The plaintiffs demonstrated a strong
understanding of their case, their responsibilities to
the class, and the expectations as class
representatives. The plaintiffs have already produced
documents, responded to discovery requests, and been
deposed. The Court believes that counsel will also

App-29
fairly and adequately represent the class members,
and they are experienced and competent to lead this
case. Wagstaff & Cartmell LLP is a Kansas City based
law firm with more than 30 attorneys and more than
100 employees. The firm has a national practice
handling complex litigation, including major multidistrict litigation and class actions. Furthermore,
prior to his confirmation the trial judge litigated cases
against the firm and found it to be experienced and
competent.
C. Rule 23(b)(3) Requirements
For class certification, the plaintiffs must also
prove this action may be maintained under Rule
23(b)(1), (2), or (3). Under Rule 23(b)(3), the court must
find “that the questions of law or fact common to class
members predominate over any questions affecting
only individual members, and that a class action is
superior to other available methods for fairly and
efficiently adjudicating the controversy.” See Fed. R.
Civ. P. 23(b)(3). “The requirements of ‘predominance’
and ‘superiority’ are stated in Rule 23(b)(3) in the
conjunctive; both must be present for an action to be
maintained under that provision.” Bryant v. Bonded
Accounts Serv./Check Recovery, 208 F.R.D. 251, 261
(D. Minn. 2000).
1. Predominance
As to the first prong of the inquiry, the Supreme
Court has ruled the “predominance inquiry tests
whether proposed classes are sufficiently cohesive to
warrant adjudication by representation.” Amchem,
521 U.S. at 623 (citing 7A Charles Alan Wright,
Arthur R. Miller, & Mary Kay Kane, Federal Practice
and Procedure § 1777, p. 518-19 (2d ed. 1986)). “In

App-30
order to ‘predominate,’ common issues must constitute
a significant part of the individual cases.” Jenkins v.
Raymark Indus., Inc., 782 F.2d 468, 472 (5th Cir.
1986). “Where there is an essential factual link
between all class members and the defendants, for
which the law provides a remedy, questions of law or
fact common to the class exist.” D’Alauro v. GC Servs.
Ltd. P’Ship, 168 F.R.D. 451, 458 (E.D.N.Y. 1996)
(citation omitted). “[W]hen one or more of the central
issues in the action are common to the class and can
be said to predominate, the action will be considered
proper under Rule 23(b)(3) even though other
important matters will have to be tried separately.”
Harris v. D. Scott Carruthers & Assoc., 270 F.R.D. 446,
453 (D. Neb. 2010) (quoting Jenkins, 782 F.2d at 472)
(alteration in original).
Defendant disagrees relying on the Ebert and
Amchem analysis. “The requirement of predominance
under Rule 23(b)(3) is not satisfied if individual
questions … overwhelm the questions common to the
class.” Ebert v. General Mills, Inc., 823 F.3d 472, 47879 (8th Cir. 2016). “In contrast to Rule 23(a)(2), the
issue of predominance under Rule 23(b)(3) is
qualitative rather than quantitative.” Id. Indeed, “the
predominance criterion is far more demanding” than
commonality. Amchem, 521 U.S. at 624. “The
predominance inquiry tests whether proposed classes
are sufficiently cohesive to warrant adjudication by
representation … and goes to the efficiency of a class
action as an alternative to individual suits.” Ebert, 823
F.3d at 479 (internal citations and quotations
omitted).

App-31
Defendant contends that individual questions
overwhelm any common ones. “An individual question
is one where ‘members of a proposed class will need to
present evidence that varies from member to member,’
while a common question is one where ‘the same
evidence will suffice for each member to make a prime
facie showing [or] the issue is susceptible to
generalized, class-wide proof.’” Tyson Foods v.
Bouaphakeo, 577 U.S. __, 136 S.Ct. 1036, 1045 (2016)
(quoting 2 W. Rubenstein, Newberg on Class Actions
§ 4:50, pp. 196-97 (5th ed. 2012)). “If to make a prima
facie showing on a given question, the members of a
proposed class will need to present evidence that
varies from member to member, then it is an
individual question.” Avritt v. Reliastar Life Insr. Co.,
615 F.3d 1032, 1035 (8th Cir. 2010) (quoting Blades v.
Monsanto Co., 400 F.3d 562, 566 (8th Cir. 2005)).
Defendant argues that plaintiffs’ individual
claims and factual issues overwhelm the individual
issues. Thus, argues defendant, this is not a superior
method of adjudication. Further, defendant contends
that a mere finding of liability cannot be used to
determine punitive damages in the first stage. That
determination argues defendant must be made at the
individual stages of the litigation. Allison v. Citgo
Petroleum Corp., 151 F.3d 402, 434 (5th Cir. 1998);
Equal Employment Opportunity Comm’n v. JBS USA,
LLC, No. 8:10CV318, 2011 WL 13137568, at *2–3 (D.
Neb. May 31, 2011) (quoting Allison and similarly
concluding “that punitive damages should be part of
the Phase II litigation”).
The Court finds that “questions of law or fact in
this case are common to the class members and

App-32
predominate over any questions affecting only
members.” Fed. R. Civ. P. 23(b)(3). The proposed
classes are sufficiently cohesive as to the alleged
pattern of the class, more so than to the individuals.
The class is easily ascertainable with or without the
expert work of Mr. Olsen, and the class will become
more obvious once defendant provides all the
necessary data. See, e.g., McKeage v. TMBC, LLC, 847
F.3d 992, 999 (8th Cir. 2017) (affirming certification
though it required “an intensive file-by-file review
process” to determine class members). The plaintiffs,
as a whole, do in fact allege and have injury. The same
evidence will be used to establish class-wide proof.
Further, the common issues predominate over the
individual issues. The important evidence will be
ascertainable from CPAY’s files, testimony and expert
reports. The legal theories all turn on the same
evidence. Assuming the general allegations are true,
the plaintiffs in this case have made a prima facie case
based on the common evidence. In re Zurn Pex
Plumbing Prod. Liab. Litig., 644 F.3d 604, 618 (8th
Cir. 2011) (quoting Blades v. Monsanto Co., 400 F.3d
562, 566 (8th Cir. 2005)). The only possible variations
that the Court sees at this time is the computation of
any damages. However, “[W]here damages can be
computed according to some formula, statistical
analysis, or other easy or essentially mechanical
methods, the fact that damages must be calculated on
an individual basis is no impediment to class
certification.” Klay v. Humana, Inc., 382 F.3d 1241,
1259-60 (11th Cir. 2004) (footnotes omitted). Here, it
appears that Mr. Olsen can make such calculations
based on CPAY’s billing records and such would be

App-33
ministerial in nature. For these reasons, the Court
finds predominance requirement is clearly met.
2. Superiority
For the second prong of the Rule 23(b)(3) inquiry,
the class action must be “superior to other available
methods for the fair and efficient adjudication of the
controversy.” See Fed. R. Civ. P. 23(b)(3). “Implicit in
the satisfaction of the predominance test is the notion
that the adjudication of common issues will help
achieve judicial economy.” Estate of Mahoney v. R.J.
Reynolds Tobacco Co., 204 F.R.D. 150, 161 S.D. Iowa
2001) (quoting Valentino v. Carter-Wallace, Inc., 97
F.3d 1227, 1234 (9th Cir. 1996)). “Having to engage in
separate threshold inquiries for each class member
prior to reaching the common issues does not promote
such economy. . . . [It] will create judicial dis
economy.” Estate of Mahoney, 204 F.R.D. at 161
(quoting Smith v. Brown & Williamson Tobacco Corp.,
174 F.R.D. 90, 94 (W.D. Mo. 1997)) (emphasis in
original).
The central issues are common to the class and
can fairly be said to predominate over individual
issues. Class-action treatment is not prohibited just
because there may be some matters that will have to
be tried separately. The plaintiffs challenge a single
cohesive policy and could arguably provide relief to
each member of the class. Also, the court has tools at
its disposal for management of class actions and it
may turn out that a class action is the “superior”
method of adjudicating the controversy. The case is
potentially a candidate for hybrid class action
treatment under Rule 23(c)(4).

App-34
As Judge Posner once stated, “[t]he realistic
alternative to a class action is not 17 million
individual suits, but zero individual suits, as only a
lunatic or a fanatic sues for $30.” Carnegie v.
Household Int’l, Inc., 376 F.3d 656, 661 (7th Cir. 2004).
The same principle applies in this case. The amount of
damages allegedly is over $100,000 million dollars.
The damages for these two plaintiffs are
approximately $200.00. A class action seems to be the
superior method of challenging the actions of the
defendant. There is no other way for the plaintiffs to
address CPAY’s alleged behaviors.
3. Filing No. 129, Motion to file a Surreply
brief or strike evidence
Defendant argues that Thomas Payne, owner of
plaintiff Skip Merchant, has changed his testimony
regarding the PCI Non-Compliance Fee. This
declaration, argues defendant, conflicts with prior
sworn testimony, first arguing that Payne challenged
the fee and later saying he sued because it is pure
profit for CPAY. Similar changes have been
disregarded under the sham affidavit rule. See, e.g.,
Camfield Tires, Inc. v. Michelin Tire Corp., 719 F.2d
1361, 1365-66 (8th Cir. 1983) (noting that “[a] party
should not be allowed to create issues of credibility by
contradicting his own earlier testimony”). Defendant
contends five additional exhibits were submitted and
plaintiffs have abandoned the theory of fraud in the
inducement in favor of fraud in the performance of
their contracts.
Plaintiffs contend that these are not new
responses and striking the evidence will not change
the outcome in any event. The Court agrees. Plaintiff’s

App-35
responded to the arguments of CPAY. Any new
arguments appear to have occurred during and after
the filing of the Amended Complaint and not in this
reply brief. After reviewing the reply brief, the Court
does not believe the plaintiffs’ changed their theories
of the case. Likewise, the Court does not believe that
the testimony by Mr. Payne constituted a “sham
affidavit” as it does not, for purposes of this motion,
essentially change the theory of the case. The Court
finds this motion is not supported by the claims and
will deny the same. See, e.g., Liberty Legal Found. v.
Nat’l Democratic Party of the USA, Inc., 875 F. Supp.
2d 791, 797 (W.D. Tenn. 2012) (sur-replies are “highly
disfavored, as they usually are a strategic effort by the
nonmoving party to have the last word on a matter”).
4. Filing No. 99, Motion to strike the report
and testimony of Karl J. Borden
Defendant moves to strike this report and
testimony pursuant to Fed. R. Evid. 702. Federal Rule
of Evidence Rule 702 allows for the admission of
expert opinions. Under Rule 702,
A witness who is qualified as an expert by
knowledge, skill, experience, training, or
education may testify in the form of an
opinion or otherwise if:
(a) the expert’s scientific, technical, or
other specialized knowledge will help the
trier of fact to understand the evidence or
to determine a fact in issue;
(b) the testimony is based on sufficient
facts or data;

App-36
(c) the testimony is the product of reliable
principles and methods; and
(d) the expert has reliably applied the
principles and methods to the facts of the
case.
Fed. R. Evid. 702; see Daubert v. Merrell Dow Pharms.,
Inc., 509 U.S. 579, 592-93 (1993) (holding that when
faced with a proffer of expert testimony, trial judges
are charged with the “gatekeeping” responsibility of
ensuring that all expert evidence admitted is both
relevant and reliable). Daubert applies to all expert
testimony, not only scientific expert testimony.
Kumho Tire Co. v. Carmichael, 526 U.S. 137, 141
(1999).
In light of Daubert and Kumho Tire, this Court
must screen proffered expert testimony for relevance
and reliability. See Bland v. Verizon Wireless, (VAW)
L.L.C., 538 F.3d 893, 896 (8th Cir. 2008). A reliable
opinion must be based on scientific methodology
rather than on subjective belief or unsupported
speculation. See Turner v. Iowa Fire Equip. Co., 229
F.3d 1202, 1208 (8th Cir. 2000). In assessing
reliability, the Court should consider factors including
whether the proposed expert’s theory, methodology or
technique: 1) can be and has been tested; 2) has been
subjected to peer review; 3) has a known or potential
rate of error; and 4) is generally accepted by the
relevant community. Bland, 538 F.3d at 896. This list
of factors is not exclusive, and this Court is allowed
“great flexibility” in its analysis. Jaurequi v. Carter
Mfg. Co.,173 F.3d 1076, 1082 (8th Cir. 1999). Doubts
regarding expert testimony should generally be
resolved in favor of admissibility. United States v.

App-37
Finch, 630 F.3d 1057, 1062 (8th Cir. 2011). The
expert’s information or opinion must also assist the
trier of fact in understanding or determining a fact in
issue. Fed. R. Evid. 702(a). “This condition goes
primarily to relevance.” Daubert, 509 U.S. at 591.
Defendant contends that Mr. Borden fails to
qualify as a proper expert under Rule 702. It argues
that Borden, who is not an attorney, intends to give a
legal opinion regarding class certification. In re Blood
Reagents Antitrust Litig., 783 F.3d 183, 187-88 (3d Cir.
2015) (“We join certain of our sister courts to hold that
a plaintiff cannot rely on challenged expert testimony,
when critical to class certification, to demonstrate
conformity with Rule 23 unless the plaintiff also
demonstrates, and the trial court finds, that the expert
testimony satisfies the standard set out in Daubert”).
The legal opinions include: first, CPAY is liable and
plaintiffs are typical of the class of merchants injured
by CPAY’s fees; second, his opinions were formed by
reading internal CPAY emails and basing his opinions
on intent; and third, his opinions opine on the state of
mind of CPAY’s former principals or non-parties. 2
Plaintiffs asked the following questions of their expert: (1) Did
CPAY impose charges or collect fees from Plaintiffs and others in
the proposed Class that were deceptive, wrongful, or contrary to
contract terms or industry standards? (2) Can evidence that is
common to all merchants adversely impacted — as opposed to
evidence unique to individual merchants — be used to
sufficiently identify the imposition of the wrongful charges and
fees in question, to prove the wrongfulness of the charges and fees
in question, to identify which merchants were imposed such
charges and fees, and to prove in what amounts such charges or
fees were paid by each affected merchant? (3) Are the named
Plaintiffs — Skip and Sandy’s — typicaland representative of the
2

App-38
Borden received a Doctor of Education degree
from the University of Massachusetts in 1975. Filing
No. 91-2, Borden Report, App’x A at 1 Page ID #1211.
He completed coursework in financial economics at
the University of Cincinnati but did not earn a degree
in financial economics. Filing No. 104-1, Ex. 13,
Borden Dep. at 38:19-39:4. None of the coursework
Borden completed, argues CPAY, was regarding
payment processing systems. Id. at 39:8-10. He
currently serves as a professor at the University of
Nebraska at Kearney. Filing No. 91-2, Borden Report
¶ 10. He teaches courses on treasury management
systems and working capital management, which
includes value transfer systems. He worked for
NXGEN which is a merchant acquirer like CPAY and
whose owner was Borden’s colleague. He previously
testified in a case concerning damages calculations,
one in a wrongful death case and one in a personal
injury case.
Borden testified that to reach his conclusions, he
(1) analyzed over 300 million merchant charge records
for over 60,000 merchants; (2) worked with a
professional systems engineer to put CPAY’s fee data
and transaction history records into a searchable
database; (3) reviewed the standard form Merchant
Processing Application & Agreement; (5) reviewed
CPAY’s data records which resulted in the billing
statements; (6) reviewed CPAY’s statements to
merchants as compared to internal records;
(7) reviewed the deposition testimony of one CPAY
representative; (8) reviewed internal emails by the
broader group of merchants similarly impacted by CPAY’s
actions? Borden Report ¶ 17.

App-39
executives of CPAY; (9) calculated the yield; and
(10) applied his education, experience, knowledge and
training. Filing No. 91-2, Borden Report ¶ 18.
Defendant contends, however, that Borden relied on
his son, Jason Borden, to pull data together.
CPAY contends that Borden is not qualified to
render his opinions under Daubert. See In re
Wholesale Grocery Prods. Antitrust Litig., No. 09-MD2090 ADM/AJB, 2012 WL 3031085 *6 (D. Minn. July
25, 2012), aff’d, 752 F.3d 728 (8th Cir. 2014) (“The
Daubert inquiry at the class certification stage is to
guard against certification of a class based on an
expert opinion so flawed that it is inadmissible as a
matter of law”). Second, CPAY argues the opinions are
inadmissible legal opinions in any event, arguing that
all three of the questions posed to Borden by the
plaintiff call for legal conclusions. In re Acceptance Ins.
Companies Sec. Litig., 423 F.3d 899, 905 (8th Cir.
2005) (“When the expert opinions are little more than
legal conclusions, a district court should not be held to
have abused its discretion by excluding such
statements”). CPAY contends that the first question
and answer go to the ultimate liability issue; and the
other two answers parrot elements of Rule 23 class
certification analysis and just says those requirements
have been satisfied. Third, with regard to Borden’s
methodology, CPAY contends it is unreliable.
Plaintiffs argue that a comprehensive Daubert
analysis is not required. In re Zurn Pex Plumbing
Prod. Liab. Litig., 644 F.3d 604, 613 (8th Cir. 2011).
Further, plaintiffs contend that that Dr. Borden is a
qualified expert in the credit card processing industry;
his opinions are relevant; and his opinions are

App-40
reliable. Also, plaintiffs argue that “Dr. Borden has
significant knowledge, education, training, and
experience in payment processing systems as a
professor of finance for the last 33 years and his own
personal involvement as both a merchant who accepts
credit card payments and as a merchant acquirer, like
Defendant CPAY, who manages his own customer
book.” Filing No. 113 at 1. In addition, CPAY has not
designated an expert to dispute the opinions of Dr.
Borden. 3
First, the Court points out that it need not rely on
Dr. Borden’s opinions to support the decision
regarding class certification. As noted above there is
ample evidence in the record to support plaintiffs’
request for class certification. It is clear from the
record as well as the testimony presented thus far in
the case. However, with that said, Dr. Borden has
been a Professor of Financial Economics at the
University of Nebraska at Kearney for over 30 years.
He is on the Graduate Faculty of the University of
Nebraska system and is recognized by the American
Association of Collegiate Schools of Business (AACSB)
as “academically” and “professionally” qualified. He
specializes in corporate finance and has authored
several publications. He has been a merchant acquirer
for over fifteen years. For this reason, the Court finds
his general testimony meets the criteria necessary for
this motion.
3 “CPAY’s expert Ratner conceded in his deposition that he was
not retained as a liability expert and offers no opinions about
whether or not plaintiffs can use common evidence to establish
liability in this case. Ratner Dep. Tr., Pltfs’ Ex. 49, 160:1-20;
181:1-4.” Filing No. 113 at 2.

App-41
Further, the Court agrees that there is no need for
a Daubert motion at this juncture in this litigation.
“The main purpose of Daubert exclusion is to protect
juries from being swayed by dubious scientific
testimony.” In re Zurn Pex Plumbing Prod. Liab.
Litig., 644 F.3d at 613; see also, Klein, 2018 WL
1187411 at *3; Bassett v. Credit Mgmt. Servs., Inc., No.
8:17CV69, 2018 WL 3159791, at *7 (D. Neb. June 28,
2018). “That interest is not implicated at the class
certification stage where the judge is the decision
maker.” Id. The Court is able to review the evidence
and rule without that testimony. With that said, the
Court will not consider any opinions regarding
Bordon’s purported legal conclusions in reviewing his
testimony. In re Acceptance Ins. Cos. Sec. Litig., 423
F.3d 899, 905 (8th Cir. 2005). With regard to the
reliability of Borden’s analytical methodology, his use
of primarily documents, rather than personal
conversations or reliance on deposition testimony,
goes to the weight of this evidence. Again, Borden can
rely on the facts he has compiled from the documents,
but he cannot give an expert opinion espousing
conclusions invading the province of the jurors. This
includes statements about whether the defendant’s
conduct was right or wrong. “Personal views on
corporate ethics and morality are not expert opinions.”
In re Baycol Prod. Litig., 532 F. Supp. 2d 1029, 105354 (D. Minn. 2007) (“Plaintiffs agree that an expert
witness’ personal ethical leanings are inappropriate.
Plaintiffs thus agree that [their expert] should be
precluded from . . . using the word ‘ethics’ and its
cognates”). Likewise, Borden may not offer any
opinions on the defendant’s state of mind. Kruszka v.

App-42
Novartis Pharm. Corp., 28 F. Supp. 3d 920, 931 (D.
Minn. 2014).
Accordingly, the Court will deny the motion to
strike this evidence at this point in the case.
5. Filing No. 117, motion for summary
judgment
Defendant asks the Court to grant summary
judgment on all counts of the First Amended Class
Action complaint pursuant to Fed. R. Civ. P. 56. CPAY
argues that all of its merchant agreements are
individualized. First, defendant argues that
notwithstanding that the merchant charges were
consistent with the terms of the contract, the claims
for breach of contract are time barred, because there
is a 90-day notice provision that plaintiffs failed to
provide to defendant.
Second, defendant argues that they are entitled to
summary judgment on plaintiffs’ RICO claims. There
is, argues defendant, no predicate act of wire fraud or
mail fraud, which are the two predicate acts for
plaintiffs’ claims.
Third, defendant contends there is no evidence to
support the claim of fraudulent concealment. The fees,
says defendant, were conspicuously disclosed on the
face of the Merchant Applications, or were the subject
of proper notice per the terms of the agreements.
a. Breach of Contract claim
A breach of contract claim under Nebraska law
requires (1) the existence of a promise, (2) its breach,
(3) damage, and (4) compliance with any conditions
precedent that activate the defendant’s contractual
duty. Phipps v. Skyview Farms, Inc., 610 N.W.2d 723,

App-43
730 (Neb. 2000). “[T]he meaning of a contract and
whether a contract is ambiguous are questions of law.”
Frohberg Elec. Co. v. Grossenburg Implement, Inc.,
900 N.W.2d 32, 37 (Neb. 2017); Windstream Corp. v.
Da Gragnano, 757 F.3d 798, 803 (8th Cir. 2014)
(“Construction of an unambiguous contract is ‘a
question of law appropriate for summary judgment’”).
“A contract written in clear and unambiguous
language is not subject to interpretation or
construction and must be enforced according to its
terms.” Frohberg, 900 N.W.2d at 38.
CPAY argues that plaintiff entered into a binding
Merchant Agreement. However, defendant contends
that plaintiffs failed to notify CPAY of these claims,
which it argues is a condition precedent to brining the
claims. See Intervision Sys. Techs., Inc. v. Intercall,
Inc., 872 N.W.2d 794, 800 (Neb. Ct. App. 2015) (“[T]he
majority of courts in other jurisdictions addressing
contract provisions that require notice of a dispute . . .
have found them to be enforceable”). The Court also
determined that the parties agreed to be bound by the
terms of the contract, so the provision was not
unconscionable, and the court could not “rewrite the
contract to exclude it.” Id. at 800. See, e.g., Zam & Zam
Super Market LLC, 736 F. App’x at 278, * 278 (2nd Cir.
2018) (“[W]e conclude as a matter of law that it is not
grossly unreasonable to expect a merchant to review
its bill and provide written notice of any disputed
charges within sixty days”); Cobra Tactical, Inc., 315
F. Supp. 3d 1342, 1350-51 (N.D. Georgia 2018)
(concluding 60-day notice provision in merchant
agreement was not “exculpatory,” “substantively
unconscionable,” or “procedurally unconscionable”
under Georgia law). This is true, argues defendants,

App-44
in the case before this Court. Plaintiffs did not give
notice of the fee disputes in accordance with the
Merchant Agreement, and thus, contends defendant,
this suit must fail. Further, defendant contends that
the Term and Conditions state that FNBO has
delegated its responsibility under the agreement to
TMS and CPAY. Thus, defendant contends that any
references to the BANK include CPAY.
Plaintiffs contend that the Notice Provision4 does
not bar plaintiffs’ breach of contract as a matter of law.
First, argues plaintiffs, the notice provision only
applies to “SALES or SERVICES activity. 5 It does not
mention FEES which is separately defined. PL SOF
¶¶ 33-38. Davenport Ltd. Partnership v. 75th & Dodge
I, L.P., 780 N.W.2d 416, 427 (Neb. 2010) (“A court is
4

The Notice Provision states: Section 7.5 states:
MERCHANT is supplied with monthly reports by
BANK regarding MERCHANT’s SALES or SERVICES
activity. It is MERCHANT’s sole responsibility to
report any error or discrepancies detected by
MERCHANT in writing to BANK within ninety (90)
days following the end of the monthly reporting period.
After such period, MERCHANT will be deemed to have
accepted the monthly reports as delivered.

Terms, § 7.5 (emphasis added); Filing No. 134, Pl SOF ¶ 33 at
Page id #3247.
“SALES” are the sales transactions resulting from the
merchant’s acceptance of financial service cards. Id., Pl. SOF ¶ 37
at Page ID #3248. “SERVICES” are the “transaction processing
and other services and products in relation to financial service
cards” provided by BANK to the merchant. Id., at #3247, Pl. SOF
¶ 36. “FEES” are “the fees as set forth in the Merchant
Application and all other sums owed to BANK for SALES and
SERVICES as set forth in the Agreement as amended from time
to time.” Id. at 3248, Pl. SOF ¶ 38.
5

App-45
not free to rewrite a contract or to speculate as to
terms of the contract which the parties have not seen
fit to include. And a contract is viewed as a whole in
order to construe it. Whatever the construction of a
particular clause of a contract, standing alone, may be,
it must be read in connection with other clauses, and
all writings forming part of the same transaction are
interpreted together”) (citations omitted). Second, it
requires plaintiffs to provide written notice of any
discrepancies to the BANK, not to CPAY. Third, even
if the notice provision required timely written notice,
plaintiffs contend that CPAY failed to provide them
with information regarding the “fee manipulations,”
information that they contend was concealed by
CPAY. Further, plaintiffs argue that CPAY urged
customers to “call” with discrepancies, which
apparently did not constitute notice. Finally, this was
a continuing scheme to defraud the merchants, but
assessing upcharges by use of a secretive overbilling
scheme to increase profits, while cheating the
merchants, argues plaintiffs, thus making the
agreement unconscionable.
Plaintiffs also argue that the language referring
to “errors or discrepancies” in the notice provision
cover only mistaken charges and not those that are
willful efforts by CPAY to change the fees. Next,
plaintiffs contend that the exculpatory clause is
unconscionable and unenforceable under Nebraska
law. Plaintiffs also argue that the provision only gives

App-46
the bank6 and not CPAY the right to change fees. 7
Plaintiffs further submit that CPAY had no right
under the contract to charge or add merchant fees.
Only the BANK, says plaintiff, had the right to charge
or change or add additional fees 8, and even the
Plaintiff argues that this is a good example of CPAY
attempting to articulate a good faith basis for increases,
suggesting a Bank increase, which was in fact just a CPAY
revenue enhancement, causing plaintiffs to have no basis at the
time to dispute the additional fees:
6

In response to upcoming modifications made by
industry card brands to interchange rates, merchants
boarded prior to January 1st, 2016 will see an eightbasis point increase to their gross processing volume
beginning April 1st, 2016.
Filing No. 134, SOF at ¶ 102 at Page ID # 3259.
And again, on the February 2016 Statement, Plaintiff Sandy was
given the following notice:
In order to help consolidate modifications from card
brands affecting interchange rates (Visa Base II Trans
Fees, International Acquirer Fee, API and LPA Fees,
Mastercard KB Trans Fees, International Service
Assessment Fees, Acquirer License Fee and more),
there will be a seven basis points ‘TSSNF Fee’ on all
gross card brand processing volume effective April 1st.
Id. Pl. SOF ¶ 128 at Page ID # 3264.
Major credit cards allow only the BANK to establish and
change fees. See Mastercard Rules, Filing No. 135-1, Exhibit 1;
Mastercard Rules, Ex. 1, 7.6.1 and 1.a,; VISA Visa Global
Acquirer Risk Standards, §4.10, Filing No. 135-Exhibit 2; Visa
Global Acquirer Risk Standards, §4.4 Merchant Agreement
Review, Exhibit 2; Visa Global Acquirer Risk Standards, §8.3
Acquirer Responsibilities When Using Agents, Exhibit 2.
7

8 Section 3.5 of Skip and Sandy’s Merchant Agreement (and all
other class members’ Merchant Agreement) states:

App-47
BANK’s rights regarding fees were limited to specific
circumstances. 9 Further, plaintiffs note that the
The FEES may be amended by BANK on thirty (30)
days written notice to MERCHANT unless provided
otherwise herein. (Terms and Conditions, Filing No.
106-1, p. 5, § 3.5).
Section 13.20 of Skip and Sandy’s Merchant Agreement (and
all other class members’ Merchant Agreement) states:
9

The CARD BRANDS require that the following be
disclosed to MERCHANT:
(i) if applicable, BANK is in control of Independent
Sales Organization’s (“ISO”) and/or Member Service
Provider’s
(“MSP”)
performance
under
this
AGREEMENT;
(ii) BANK must pre-approve all FEES;
(iii) the AGREEMENT may not be amended without
BANK’s express written consent;
(iv) if applicable, ISO and/or MSP may not have access
to MERCHANT’s funds; and
(v) BANK may not waive the foregoing requirements.
Terms and Conditions, Filing No. 106-1, p. 10, §13.20. Section 5.6
of FNBO and CPAY’s Third Party Organization Marketing and
Registration Agreement (“the CPAY/FNBO Agreement”) states:
The ASSOCIATIONS require that FNBO must control
the establishment of MERCHANT fees and has the
right to review and approve pricing of MERCHANTS
as required by ASSOCIATIONS to ensure compliance
with the RULES. MERCHANT pricing and
MERCHANT profitability are the sole responsibility of
COMPANY and will not be monitored or guaranteed
by FNBO. COMPANY shall report to FNBO all fees
charged to MERCHANTS. COMPANY agrees to notify
FNBO in a format reasonably acceptable to FNBO of
changes by COMPANY to all MERCHANTS’ charges
and fees or other maintenance changes with at least
thirty (30) days written notice prior to the effective

App-48
Merchant Agreement does not require written
challenges to fee disputes, and in any event, CPAY is
not listed in the notice provision as a party that would
be noticed. Plaintiffs contend that CPAY has offered
no evidence to rebut the overwhelming evidence of
deception. None of the other contract provisions in the
plaintiffs’ Merchant Agreement provide CPAY with
the ability to amend or change the stipulated fees. See,
Sandy’s Merchant Agreement, Filing No. 105-1. These
are all, argue plaintiffs, issues of material fact to be
decided at trial.
Plaintiffs also argue that “where a promisor
prevents, hinders, or renders impossible the
occurrence of a condition precedent to his or her
promise to perform, the promisor is not relieved of the
obligation to perform and may not invoke the other
party’s nonperformance as a defense when sued upon
the contract.” D&S Realty, Inc. v. Markel Ins. Co., 816
N.W.2d 1, 13 (Neb. 2012) (“In short, under the doctrine
of prevention, where a party to a contract is the cause
of the failure of the performance of the obligation due
him or her, that party cannot in any way take
advantage of that failure”).

date of the change. COMPANY may change charges
and fees to MERCHANTS and is responsible for
notifying MERCHANTS with thirty (30) days written
notice of such change. All changes in fees and charges
by COMPANY shall be effective on the first day of the
month following the thirty (30) day notice to FNBO or
after COMPANY makes the change on FNBO’s
system.
(CPAY/FNBO Agreement, Filing No. No. 101-4, p. 7, § 5.6).

App-49
The Court agrees that it should not expand the
definition of FEES or SALES. Davenport, 780 N.W. 2d
at 428 (“The expression of one thing implies the
exclusion of another, and in this case, the use of the
words ‘expiration’ and ‘termination’ together in
several places, but not in exhibit D, provides ample
support for the district court’s conclusion that the
expiration of the Ground Lease was not a ‘termination’
within the meaning of exhibit D”).
Under Nebraska law, Plaintiffs must demonstrate
both substantive and procedural unconscionability.
See Myers v. Neb. Inv. Council, 724 N.W.2d 776, 799
(Neb. 2006). Substantive unconscionability does not
exist “unless the terms are grossly unfair under the
circumstances that existed when the parties entered
into the contract.” Id. Similarly, procedural
unconscionability requires a “disparity in respective
bargaining positions of parties to a contract.” Id.
“‘Unconscionability is determined in light of all the
surrounding circumstances, including (1) the manner
in which the parties entered into the contract,
(2) whether the parties had a reasonable opportunity
to understand the terms of the contract, and
(3) whether the important terms were hidden in a
maze of fine print.’” Henggeler v. Brumbaugh &
Quandahl, P.C., LLO, 894 F. Supp. 2d 1180, 1187 (D.
Neb. 2012) (Bataillon, J.) (quoting Parizek v. Roncalli
Catholic High Sch., 655 N.W.2d 404, 408 (Neb. 2002)).
Based on the foregoing, the Court finds the
plaintiffs have made a prima facie evidentiary
showing of breach of contract. They have also shown
that the contract may be unconscionable, due to the
alleged fraud and misrepresentations. The plaintiffs

App-50
have in fact offered argument and evidence of
deception. These are fact issues. For the reasons set
forth herein, the Court will deny the motion for
summary judgment as it relates to the breach of
contract claim.
b. Breach of covenant of Good Faith and
Fair Dealing
Under Nebraska law, “[a] violation of the
covenant of good faith and fair dealing occurs only
when a party violates, nullifies, or significantly
impairs any benefit of the contract.” In re Application
of Ne. Pub. Power Dist., 912 N.W.2d 884, 896 (Neb.
2018); Spanish Oaks, Inc. v. Hy-Vee, Inc., 655 N.W.2d
390, 400 (Neb. 2003). Defendants contend that this
claim is the same as the breach of contract claim and
thus should be entitled to summary judgment. See
Spanish Oaks, Inc., 655 N.W.2d at 400.
Defendant argues that this theory is redundant of
the plaintiffs’ breach of contract claim. Plaintiff
disagrees contending that these are both separate
causes of action. As this Court has stated, the plaintiff
can plead alternative legal theories of recovery.
Corona v. First Nat’l Bank of Omaha, 2014 WL
2558327 *4 (D. Neb. 2014). Plaintiffs have clearly
articulated its alleged dishonest billing actions.
The Court agrees with the plaintiffs. For the same
reasons as discussed in the previous section, breach of
contract, the Court will likewise deny the motion for
summary judgment. The plaintiff has every right to
plead and prove alternative theories of recovery.

App-51
c. RICO claims
RICO is concerned with “eradicating organized,
long-term, habitual criminal Activity.” Crest Constr.
II, Inc. v. Doe, 660 F.3d 346, 353 (8th Cir. 2011).
Generally, the purpose of RICO is not to convert
regular civil suits into RICO cases. Stonebridge
Collection, Inc. v. Carmichael, 791 F.3d 811, 822 (8th
Cir. 2015). Section 1962(c), prohibits “any person
employed by or associated with any enterprise
engaged in . . . interstate . . . commerce, to conduct or
participate, directly or indirectly, in the conduct of
such enterprise’s affairs through a pattern of
racketeering activity.” 18 U.S.C. § 1962(c). To succeed
on such a claim, plaintiffs must show “(1) conduct
(2) of an enterprise (3) through a pattern (4) of
racketeering activity.” H & Q Props., Inc. v. Doll, 793
F.3d 852, 856 (8th Cir. 2015); Crest Constr. II, Inc., 660
F.3d at 353.
Defendant argues that plaintiff is unable to show
racketeering activity and cannot show a scheme to
defraud, as discussed under the contract section,
because the terms were in the Merchant Agreement.
Plaintiffs agreed to these terms, argues defendant.
Plaintiffs argue that the racketeering activity
occurred because of numerous violations wire and
mail fraud statutes. CPAY created a scheme to have
the sellers to the merchants and thereafter increase
the rates and fees without consultation with FNBO.
No merchant, argues plaintiffs, agreed to pay these
fees. This plan, contends plaintiffs, were intended to
deceive the plaintiffs. They concealed, manipulated
and controlled information. These charges were not
pre-approved by FNBO. All of these material facts

App-52
were not disclosed to the merchants. The Eighth
Circuit held:
The crime of mail fraud is broad in scope and
its fraudulent aspect is measured by a nontechnical standard, condemning conduct
which fails to conform to standards of moral
uprightness, fundamental honesty, and fair
play. A plaintiff may, but need not, allege that
a defendant made misrepresentations of fact.
Because misrepresentations of fact are not
necessary to the offense, it follows that no
misrepresentations need be transmitted by
mail or wire: even routine business
communications in these media may suffice to
make a scheme of false dealing into a federal
offense.
Filing No. 87, Memorandum and Order at 8 (quoting
Abels v. Farmers Commodities Corp., 259 F.3d 910,
918-19 (8th Cir. 2001)).
For purposes of the motion for summary
judgment, the Court agrees that plaintiff has
sufficiently plead and offered evidence of each of the
required elements. The conduct is clearly outlined in
this Memorandum and Order. The allegations include
mail and wire fraud violations and evidence of the
same. The alleged scheme was massive, covering
numerous entities throughout the United States.
Deception and fraud are involved. These factual
questions will be decided at trial.
d. Fraudulent Concealment
Under Nebraska law, plaintiffs must prove that:
(1) CPAY had a duty to disclose a material fact;
(2) CPAY knowingly concealed that fact and the fact

App-53
was not within Plaintiffs’ reasonably diligent
attention,
observation,
and
judgment;
and
(3) Plaintiffs reasonably relied on the fact or facts as
they believed them to be as the result of CPAY’s
concealment. See Knights of Columbus Council 3152
v. KFS BD Inc., 791 N.W.2d 317, 334 (Neb. 2010). “In
order to state a claim for fraudulent concealment in
Nebraska, plaintiff must allege: [1] a duty to disclose
a material fact; [2] knowledge of the fact;
[3] concealment of the fact; [4] that the fact was not
within
the
plaintiff’s
reasonable
attention,
observation and judgment; [5] that defendant
concealed the fact intending that plaintiffs act or
refrain from acting; [6] and that plaintiffs reasonably
relied on those facts; and [7] that plaintiffs were
damaged by the action or inaction of the concealment.”
Custom Hair Designs by Sandy, LLC v. Cent. Payment
Co., LLC, No., 2019 WL 3342206, at *5 (D. Neb. July
25, 2019) (numbering in brackets added) citing
Knights of Columbus Council 3152 v. KFS BD, Inc.,
791 N.W.2d 317, 334 (Neb. 2010)).
Defendant first contends it had no duty to
disclose, as it is not a fiduciary. Nat’l Am. Ins. Co. v.
Constructors Bonding Co., 719 N.W.2d 297, 303 (Neb.
2006). Further, defendant argues that its fees were
adequately disclosed to the plaintiffs and appropriate
notices of fee increases were also adequately disclosed.
Third, defendant contends that plaintiffs are unable to
show justifiable reliance. Plaintiffs, argue defendant,
admit they did not review their Merchant Applications
or the relevant Terms and Conditions. The plaintiffs,
state defendant, cannot both ignore the terms and also
claim that CPAY concealed them. See Knights of
Columbus Council 3152, 791 N.W.2d at 334; Lucky 7,

App-54
L.L.C. v. THT Realty, L.L.C., 775 N.W.2d 671, 677
(Neb. 2009).
Plaintiffs contend that the intentional fraud and
deceit committed by the defendant is sufficient to
create material facts for trial. These discount rate
increases on merchant accounts happened often and
material information was omitted. Nowhere, argues
plaintiffs, does it say that the discount rates can or
will be increased for CPAY’s business need. The
plaintiffs contend that defendant imposed fees, for
example the noncompliance fee, 10 with no service in
return. CPAY imposed a TSSNF Fee on 84,953
separate merchants from January 2012 to October
2018 and collected $18,565,125.28. (Arthur Olsen
Report, Filing No. 91-23, at ¶¶ 24-25. Merchants,
including
plaintiffs,
collectively
paid
CPAY
$36,969,924.00 for PCI Noncompliance Fees from
January 2012 through October 2018. Id. See e.g.,
Adams v. American Cyanamid Co., 498 N.W.2d 577,
591 (Neb. Ct. App. 1992) (finding provision
procedurally unconscionable because its importance
was not understandable to a layperson and would
“permit the defendant to escape all consequential
responsibility” and leave the plaintiff without
“substantial recourse for his loss”).
The Court agrees that CPAY had a duty to
disclose material facts to the merchants, even in the
absence of a fiduciary duty. Streeks, Inc. v. Diamond
Hill Farms, Inc., 605 N.W.2d 110 (Neb. 2000),
10 This fee was a penalty to the merchant for failing to “attest”
every year they are in compliance with all PCI (payment card
industry) standards. (Chang Dep. Tr. at 254:1-12, and 259:15-19,
No. 91-3).

App-55
overruled on other grounds by Knights of Columbus
Council 3152 v. KFS BD, Inc., 280 Neb. 904, 791
N.W.2d 317 (Neb. 2010); Cyclonaire Holding Corp. v.
Baker, 2017 WL 3206894, at *8 (D. Neb. Apr. 11, 2017)
(whether or not there was a fiduciary relationship
between the parties in this case is not dispositive of
the duty to disclose); see also Knights of Columbus, 791
N.W.2d at 331-32 (“When a party makes a partial or
fragmentary statement that is materially misleading
because of the party’s failure to state additional or
qualifying facts, the statement is fraudulent.”);
DeNourie & Yost Homes, LLC v. Frost, 854 N.W.2d
298, 312 (Neb. 2014) (“If a defendant’s partial or
ambiguous representation is materially misleading,
then ... the defendant has a duty to disclose known
facts that are necessary to prevent the representation
from being misleading”).
The Court also agrees that there is a genuine
issues of material fact for trial regarding fraudulent
concealment. See, e.g., TCF Nat. Bank v. Mkt.
Intelligence, Inc., 812 F.3d 701, 711 (8th Cir. 2016)
(“Generally, “fraudulent concealment and a plaintiff’s
due diligence are questions of fact unsuitable for
summary judgment”). Plaintiffs had every right to
justifiably rely on the billings, not knowing there was
a scheme to defraud or concealment of certain facts
and fees. “That is, if a defendant’s partial or
ambiguous representation is materially misleading,
then the defendant has a duty to disclose known facts
that are necessary to prevent the representation from
being misleading.” Knights of Columbus, 791 N.W.2d
at 332-33.

App-56
THEREFORE, IT IS ORDERED THAT:
1. Plaintiffs’ motion for class certification, Filing
No. 89, is granted;
2. The Court certifies the following class:
All of CPAY’s customers that, from January 1,
2010, to the present (a) were assessed the TSSNF
Fee (a/k/a TSYS Network Fee); (b) were assessed
the PCI Noncompliance Fee; (c) had their
contractual credit card discount rates increased
above their contractual rate by CPAY; and/or
(d) had credit card transactions shifted by CPAY
from lower-cost rate tiers to higher-cost rate tiers.
3. The Court appoints the following attorney as
lead counsel for the proposed class:
Tyler W. Hudson
Wagstaff & Cartmell LLP
4740 Grand Avenue, Suite 300
Kansas City, MO 64112
4. Defendant’s motion to file a sur-reply brief
and/or strike evidence, Filing No. 129 with reference
to Filing No. 89, is denied.
5. Defendant’s motion to strike the testimony of
Karl J. Borden, Filing No. 99, is denied.
6. Defendant’s motion for summary judgment,
Filing No. 117, is denied.
Dated this 11th day of February, 2020.
BY THE COURT:
s/ Joseph F. Bataillon
Senior United States District Judge

App-57
Appendix C
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
________________
No. 20-1677
________________
CUSTOM HAIR DESIGNS BY SANDY, LLC, on behalf of
themselves and all others similarly situated and
SKIP’S PRECISION WELDING, LLC, on behalf of
themselves and all others similarly situated,
v.

Appellees,

CENTRAL PAYMENT CO., LLC,
Appellant.
----------------------------------------------MAIN STREET ALLIANCE,
Amicus on behalf of
Appellee(s).
________________
Appeal from the United States District Court
for the District of Nebraska – Omaha
(8:17-cv-00310-JFB)
Filed: February 11, 2021
________________
ORDER
________________
The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.

App-58
February 11, 2021
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
___________________________________
/s/ Michael E. Gans

App-59
Appendix D
Fed. R. Civ. P. 23. Class Actions
(a) PREREQUISITES. One or more members of a class
may sue or be sued as representative parties on behalf
of all members only if:
(1) the class is so numerous that joinder of all
members is impracticable;
(2) there are questions of law or fact common to
the class;
(3) the claims or defenses of the representative
parties are typical of the claims or defenses of the
class; and
(4) the representative parties will fairly and
adequately protect the interests of the class.
(b) TYPES OF CLASS ACTIONS. A class action may be
maintained if Rule 23(a) is satisfied and if:
(1) prosecuting separate actions by or against
individual class members would create a risk of:
(A) inconsistent or varying adjudications
with respect to individual class members that
would establish incompatible standards of
conduct for the party opposing the class; or
(B) adjudications with respect to individual
class members that, as a practical matter,
would be dispositive of the interests of the
other members not parties to the individual
adjudications or would substantially impair
or impede their ability to protect their
interests;

App-60
(2) the party opposing the class has acted or
refused to act on grounds that apply generally to
the class, so that final injunctive relief or
corresponding declaratory relief is appropriate
respecting the class as a whole; or
(3) the court finds that the questions of law or
fact common to class members predominate over
any questions affecting only individual members,
and that a class action is superior to other
available methods for fairly and efficiently
adjudicating the controversy. The matters
pertinent to these findings include:
(A) the class members’ interests in
individually controlling the prosecution or
defense of separate actions;
(B) the extent and nature of any litigation
concerning the controversy already begun by
or against class members;
(C) the desirability or undesirability of
concentrating the litigation of the claims in
the particular forum; and
(D) the likely difficulties in managing a class
action.
(c) CERTIFICATION ORDER; NOTICE TO CLASS
MEMBERS; JUDGMENT; ISSUES CLASSES; SUBCLASSES.
(1) Certification Order.
(A) Time to Issue. At an early practicable
time after a person sues or is sued as a class
representative, the court must determine by
order whether to certify the action as a class
action.

App-61
(B) Defining the Class; Appointing Class
Counsel. An order that certifies a class action
must define the class and the class claims,
issues, or defenses, and must appoint class
counsel under Rule 23(g).
(C) Altering or Amending the Order. An
order that grants or denies class certification
may be altered or amended before final
judgment.
(2) Notice.
(A) For (b)(1) or (b)(2) Classes. For any class
certified under Rule 23(b)(1) or (b)(2), the
court may direct appropriate notice to the
class.
(B) For (b)(3) Classes. For any class certified
under Rule 23(b)(3)—or upon ordering notice
under Rule 23(e)(1) to a class proposed to be
certified for purposes of settlement under
Rule 23(b)(3)—the court must direct to class
members the best notice that is practicable
under the circumstances, including individual
notice to all members who can be identified
through reasonable effort. The notice may be
by one or more of the following: United States
mail, electronic means, or other appropriate
means. The notice must clearly and concisely
state in plain, easily understood language:
(i) the nature of the action;
(ii) the definition of the class certified;
(iii) the class claims, issues, or defenses;

App-62
(iv) that a class member may enter an
appearance through an attorney if the
member so desires;
(v) that the court will exclude from the
class any member who requests exclusion;
(vi) the time and manner for requesting
exclusion; and
(vii) the binding effect of a class
judgment on members under Rule
23(c)(3).
(3) Judgment. Whether or not favorable to the
class, the judgment in a class action must:
(A) for any class certified under Rule
23(b)(1) or (b)(2), include and describe those
whom the court finds to be class members;
and
(B) for any class certified under Rule
23(b)(3), include and specify or describe those
to whom the Rule 23(c)(2) notice was directed,
who have not requested exclusion, and whom
the court finds to be class members.
(4) Particular Issues. When appropriate, an
action may be brought or maintained as a class
action with respect to particular issues.
(5) Subclasses. When appropriate, a class may
be divided into subclasses that are each treated as
a class under this rule.
(d) CONDUCTING THE ACTION.
(1) In General. In conducting an action under
this rule, the court may issue orders that:

App-63
(A) determine the course of proceedings or
prescribe measures to prevent undue
repetition or complication in presenting
evidence or argument;
(B) require—to protect class members and
fairly conduct the action—giving appropriate
notice to some or all class members of:
(i) any step in the action;
(ii) the proposed extent of the judgment;
or
(iii) the members’ opportunity to signify
whether they consider the representation
fair and adequate, to intervene and
present claims or defenses, or to otherwise
come into the action;
(C) impose conditions on the representative
parties or on intervenors;
(D) require that the pleadings be amended
to eliminate allegations about representation
of absent persons and that the action proceed
accordingly; or
(E) deal with similar procedural matters.
(2) Combining and Amending Orders. An order
under Rule 23(d)(1) may be altered or amended
from time to time and may be combined with an
order under Rule 16.
(e)

SETTLEMENT, VOLUNTARY DISMISSAL, OR
COMPROMISE. The claims, issues, or defenses of a
certified class—or a class proposed to be certified for
purposes of settlement—may be settled, voluntarily
dismissed, or compromised only with the court’s

App-64
approval. The following procedures apply to a
proposed settlement, voluntary dismissal, or
compromise:
(1) Notice to the Class.
(A) Information That Parties Must Provide
to the Court. The parties must provide the
court with information sufficient to enable it
to determine whether to give notice of the
proposal to the class.
(B) Grounds for a Decision to Give Notice.
The court must direct notice in a reasonable
manner to all class members who would be
bound by the proposal if giving notice is
justified by the parties’ showing that the court
will likely be able to:
(i) approve the proposal under Rule
23(e)(2); and
(ii) certify the class for purposes of
judgment on the proposal.
(2) Approval of the Proposal. If the proposal
would bind class members, the court may approve
it only after a hearing and only on finding that it
is fair, reasonable, and adequate after considering
whether:
(A) the class representatives and class
counsel have adequately represented the
class;
(B) the proposal was negotiated at arm’s
length;
(C) the relief provided for the class is
adequate, taking into account:

App-65
(i) the costs, risks, and delay of trial and
appeal;
(ii) the effectiveness of any proposed
method of distributing relief to the class,
including the method of processing classmember claims;
(iii) the terms of any proposed award of
attorney’s fees, including timing of
payment; and
(iv) any agreement required to be
identified under Rule 23(e)(3); and
(D) the proposal treats class members
equitably relative to each other.
(3) Identifying Agreements. The parties seeking
approval must file a statement identifying any
agreement made in connection with the proposal.
(4) New Opportunity to Be Excluded. If the class
action was previously certified under Rule
23(b)(3), the court may refuse to approve a
settlement unless it affords a new opportunity to
request exclusion to individual class members
who had an earlier opportunity to request
exclusion but did not do so.
(5) Class-Member Objections.
(A) In General. Any class member may
object to the proposal if it requires court
approval under this subdivision (e). The
objection must state whether it applies only to
the objector, to a specific subset of the class,
or to the entire class, and also state with
specificity the grounds for the objection.

App-66
(B) Court Approval Required for Payment in
Connection with an Objection. Unless
approved by the court after a hearing, no
payment or other consideration may be
provided in connection with:
(i) forgoing or withdrawing an objection,
or
(ii) forgoing, dismissing, or abandoning
an appeal from a judgment approving the
proposal.
(C) Procedure for Approval After an Appeal.
If approval under Rule 23(e)(5)(B) has not
been obtained before an appeal is docketed in
the court of appeals, the procedure of Rule
62.1 applies while the appeal remains
pending.
(f) APPEALS. A court of appeals may permit an appeal
from an order granting or denying class-action
certification under this rule, but not from an order
under Rule 23(e)(1). A party must file a petition for
permission to appeal with the circuit clerk within 14
days after the order is entered, or within 45 days after
the order is entered if any party is the United States,
a United States agency, or a United States officer or
employee sued for an act or omission occurring in
connection with duties performed on the United
States’ behalf. An appeal does not stay proceedings in
the district court unless the district judge or the court
of appeals so orders.
(g) CLASS COUNSEL.
(1) Appointing Class Counsel. Unless a statute
provides otherwise, a court that certifies a class

App-67
must appoint class counsel. In appointing class
counsel, the court:
(A) must consider:
(i) the work counsel has done in
identifying or investigating potential
claims in the action;
(ii) counsel’s experience in handling
class actions, other complex litigation,
and the types of claims asserted in the
action;
(iii) counsel’s knowledge
applicable law; and

of

the

(iv) the resources that counsel will
commit to representing the class;
(B) may consider any other matter pertinent
to counsel’s ability to fairly and adequately
represent the interests of the class;
(C) may order potential class counsel to
provide information on any subject pertinent
to the appointment and to propose terms for
attorney’s fees and nontaxable costs;
(D) may include in the appointing order
provisions about the award of attorney’s fees
or nontaxable costs under Rule 23(h); and
(E) may make further orders in connection
with the appointment.
(2) Standard for Appointing Class Counsel.
When one applicant seeks appointment as class
counsel, the court may appoint that applicant only
if the applicant is adequate under Rule 23(g)(1)
and (4). If more than one adequate applicant seeks

App-68
appointment, the court must appoint the
applicant best able to represent the interests of
the class.
(3) Interim Counsel. The court may designate
interim counsel to act on behalf of a putative class
before determining whether to certify the action
as a class action.
(4) Duty of Class Counsel. Class counsel must
fairly and adequately represent the interests of
the class.
(h) ATTORNEY’S FEES AND NONTAXABLE COSTS. In a
certified class action, the court may award reasonable
attorney’s fees and nontaxable costs that are
authorized by law or by the parties’ agreement. The
following procedures apply:
(1) A claim for an award must be made by
motion under Rule 54(d)(2), subject to the
provisions of this subdivision (h), at a time the
court sets. Notice of the motion must be served on
all parties and, for motions by class counsel,
directed to class members in a reasonable
manner.
(2) A class member, or a party from whom
payment is sought, may object to the motion.
(3) The court may hold a hearing and must find
the facts and state its legal conclusions under
Rule 52(a).
(4) The court may refer issues related to the
amount of the award to a special master or a
magistrate judge, as provided in Rule 54(d)(2)(D).

